DECEMBER 13, 2010
  AUDIT REPORT




                                                      OFFICE OF AUDITS




    REVIEW OF THE JET PROPULSION LABORATORY’S
          OCCUPATIONAL SAFETY PROGRAM




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-11-004 (ASSIGNMENT NO. A-09-010-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

AOA          Annual Operating Agreement
C.F.R.       Code of Federal Regulations
FY           Fiscal Year
IFO          Institutional/Facilities/Operational
IRIS         Incident Reporting Information System
JPL          Jet Propulsion Laboratory
NASA         National Aeronautics and Space Administration
NPD          NASA Policy Directive
NPR          NASA Procedural Requirements
OIG          Office of Inspector General
OSHA         Occupational Safety and Health Administration
OSMA         Office of Safety and Mission Assurance


                                                             REPORT NO. IG-11-004
DECEMBER 13, 2010




                                                                                       OVERVIEW

               REVIEW OF THE JET PROPULSION LABORATORY’S
                     OCCUPATIONAL SAFETY PROGRAM

                                                                                         The Issue

  Working in the construction industry is one of the most dangerous occupations in the
  United States. According to the Bureau of Labor Statistics, 969 construction workers
  died from work-related injuries in 2008, and these deaths accounted for 19 percent of all
  work-related fatalities. 1 During that same year, 322,700 non-fatal construction injuries
  occurred, which account for 7 percent of all work-related injuries. The most common
  construction hazards are falls, both in place and from height; electrocution;
  malfunctioning equipment (e.g., cranes, forklifts, and other machinery); and trench
  cave-ins. 2

  We initiated this audit in response to a        Figure 1. Workers in Collapsed, Unprotected Trench
  series of mishaps and employee allega-                     at JPL
  tions of unsafe and unhealthful working
  conditions during construction operations
  at the Jet Propulsion Laboratory (JPL), a
  federally funded research and development
  center owned by NASA and operated
  pursuant to contract by the California
  Institute of Technology (Caltech). 3 In one
  instance brought to our attention, eight
  subcontractor employees entered a
  collapsed and unprotected trench to repair
  a damaged communications conduit (see            Source: Vanir Construction Management, Inc. (July 18,
  Figure 1). This unsafe act placed the            2008)
  workers at risk of serious injury or loss of
  life due to the potential for additional collapse of the trench and raised serious questions
  about the oversight and supervision of construction safety at JPL.

  The overall objective of this audit was to determine whether JPL had implemented
  appropriate internal controls related to oversight of contractors and subcontractors who
  1
      U.S. Department of Labor, Bureau of Labor Statistics, USDL 09-0979, August 20, 2009. News Release,
      “National Census of Fatal Occupational Injuries in 2008.”
  2
      Occupational Safety and Health Administration (OSHA), OSHA Compliance Assistance Quick Start for
      the Construction Industry, OSHA Publications 3146, 3252, 3075, 3215, and 2226.
  3
      Prime contract NAS7-03001, effective October 1, 2003.



REPORT NO. IG-11-004
                                                                                                          OVERVIEW



     perform on-site construction projects. Specifically, we examined whether the JPL
     Occupational Safety Program Office (JPL Occupational Safety Office) had implemented
     an effective process to report, investigate, and document mishaps, close calls, and lessons
     learned. 4 We also evaluated whether JPL and its subcontractors were compliant with
     Federal, state, and local laws and regulations, as well as contractually mandated safety
     requirements. During the course of the audit, we expanded our audit objectives to
     determine whether the two NASA offices with oversight responsibility for worker
     safety – the NASA Management Office and the Office of Safety and Mission Assurance
     (OSMA) – had conducted sufficient oversight of the JPL Occupational Safety Office to
     ensure that contractually mandated occupational safety and health requirements were
     effectively implemented at JPL. Additional details of the audit’s scope and methodology
     are in Appendix A.

     Results

     We found that the JPL Occupational Safety Office had ineffective management systems
     and controls for construction safety. We also found that although OSMA had procedures
     in place intended to ensure that JPL had implemented contractually mandated safety
     requirements, it failed to follow those procedures. In addition, the NASA Management
     Office did not have policies or procedures to ensure that JPL had fully implemented
     contractually mandated safety requirements. As a result, OSMA and NASA
     Management Office personnel did not identify the JPL Occupational Safety Office’s
     internal control deficiencies and NASA management did not have the information
     required to make knowledgeable risk acceptance and mitigation decisions, which in turn
     placed JPL personnel and facilities at increased risk.

     The JPL Occupational Safety Office Did Not Effectively Identify Occupational
     Safety Program Budget Requirements. The JPL Occupational Safety Office develops
     requirements and provides budget and resource estimates to the JPL Office of Safety and
     Mission Success. However, the JPL Occupational Safety Office’s budget management
     process lacked the detail necessary to identify, prioritize, track, monitor, or assess
     progress for functions related to construction safety. Moreover, the JPL Occupational
     Safety Office’s annual operating budget was inconsistent with the provisions defined in
     JPL’s Annual Operating Agreement (AOA). 5 As a result, the JPL Occupational Safety
     Office’s budget management process was ineffective in measuring performance for
     construction safety-related functions such as confined space entry, asbestos and lead
     abatement, fall protection, and construction drawing reviews. In addition, there was no

     4
         NASA defines a mishap as an unplanned event that results in injury to personnel or damage to property.
         NASA categorizes mishaps based on the severity of injury to personnel or total cost of damage to
         property. Mishap classifications range from a Type A Mishap, the most severe, to a close call, the least
         severe.
     5
         An AOA is a management plan that defines Center safety and health requirements and the resources
         required to meet those requirements. In addition, the AOA defines the metrics used to measure the
         effectiveness of safety and mission assurance processes.



ii                                                                                         REPORT NO. IG-11-004
OVERVIEW



  assurance that the resources allocated to the JPL Occupational Safety Office were
  sufficient to perform construction safety inspections and other programmatic oversight.

  The JPL Occupational Safety Office’s Construction Safety Oversight Was
  Ineffective. We found that the JPL Occupational Safety Office’s oversight process for
  construction safety was ineffective in identifying unsafe acts or unhealthful conditions.
  The oversight process was hampered by the Occupational Safety Office’s practice of
  assigning construction supervisors and safety personnel to its Construction Safety Group
  on a rotational basis, which resulted in high personnel turnover and a loss of project
  knowledge. In addition, as safety personnel rotated into and out of the Construction
  Safety Group, they did not receive sufficient training to educate them in identifying and
  abating hazards typically found during construction projects. As a result, safety hazards
  were not recognized during the construction design review process, the building and
  structural inspection process, or the hazard abatement process. For example, in 2009 the
  JPL Occupational Safety Office reviewed and approved design drawings and accepted a
  building that was constructed with a rooftop parapet that was not in compliance with
  California Occupational Safety and Health Administration (OSHA) standards. As a
  result, NASA spent an additional $11,836 to build guardrails to abate fall hazards.

  Additionally, the oversight process did not comply with JPL internal standard operating
  procedures that require the use of a standardized checklist during inspections and did not
  comply with the inspection requirements in NASA Procedural Requirements (NPR)
  8715.1, Chapter 4, “Inspection and Abatement.” 6 The NPR requires that all inspections
  be documented and an abatement plan developed for conditions that take more than
  30 calendar days to correct, that a summary of all open abatement plans be submitted as
  part of JPL’s input to NASA’s annual reporting requirements, and that a risk assessment
  process be used to analyze and evaluate overall risk potential. 7

  In addition, the JPL Occupational Safety Office did not document risk assessments or the
  prioritization of reported hazards stemming from employee complaints. We reviewed the
  95 unsafe or unhealthful incidents reported to that office by JPL employees from October
  2007 through early July 2009 and found that in only 2 instances was there any evidence
  that the JPL Occupational Safety Office had conducted any kind of risk assessment or
  hazard prioritization. Further, of those 95 reported incidents, only 7 showed that the
  Office had conducted additional inspections to ensure that the hazard was abated and
  only 8 showed that the office had provided follow-up information to the reporting
  employees affected by the reported hazard.


  6
      On March 30, 2004, NASA renamed NASA Procedures and Guidelines 8715.1 as NPR 8715.1, “NASA
      Occupational Health and Safety Programs,” without substantially changing its substance. Hereafter, we
      refer to the NASA Procedures and Guidelines as the NPR.
  7
      NPR 8715.3C, “NASA General Safety Program Requirements (w/Change 4 dated 7/20/09),” defines risk
      management as an organized, systematic decision-making process that efficiently identifies, analyzes,
      plans, tracks, controls, communicates, and documents risk to increase the likelihood of achieving project
      goals. The NPR defines risk assessment as a process of qualitative risk categorization or quantitative risk
      (safety) estimation, followed by the evaluation of risk significance.



REPORT NO. IG-11-004                                                                                                iii
                                                                                                         OVERVIEW



     The JPL Occupational Safety Office’s Mishap, Close Call, and Hazard Reporting
     Processes Are Inefficient, Incomplete, and Untimely. We found that the JPL
     Occupational Safety Office did not implement an efficient and effective mishap, close
     call, and hazard reporting system as required by the prime contract. The reporting system
     involved multiple reporting processes that were inefficient in consolidating incident data
     to perform trending and root cause analysis for recurring problems and subsequently
     communicating lessons learned. 8 In addition, the reporting process did not ensure that
     mishaps and close calls were documented and all incident data were recorded in a timely
     manner into the NASA Incident Reporting Information System (IRIS). For example, the
     collapse of a construction trench described previously, which caused approximately
     $329,000 of damage to JPL communication lines, was not reported to the JPL
     Occupational Safety Office within 24 hours as required by the prime contract. In fact,
     this serious incident was not reported to the JPL Occupational Safety Office until 3 days
     after it occurred, causing subcontractor employees to continue to be exposed to hazardous
     conditions when they entered the unshored trench. Had the JPL Occupational Safety
     Office been notified in a timely manner as required, JPL Occupational Safety Office
     personnel would have been able to respond to the scene and make recommendations for
     safe entry into the collapsed trench.

     The NASA Management Office and OSMA Did Not Effectively Oversee the JPL
     Occupational Safety Office. We found that the NASA Management Office and OSMA
     did not provide sufficient oversight to ensure programmatic compliance by the JPL
     Occupational Safety Office. First, the NASA Management Office did not develop plans
     or resource requirements to oversee JPL’s short-term and long-term operations or
     coordinate oversight activities with OSMA strategic audit plans for JPL. Specifically, the
     NASA Management Office and OSMA did not coordinate their review of the JPL
     Occupational Safety Office’s corrective action plan in response to audit findings or their
     activities to verify that the JPL Occupational Safety Office had taken the specified
     corrective actions. Second, periodic oversight audits by OSMA did not identify instances
     in which the JPL Occupational Safety Office was not in compliance with NPR 8715.1.
     This inadequate oversight was caused, at least in part, by the absence of clearly defined
     oversight roles and responsibilities between the NASA Management Office and OSMA.

     Although the NASA Management Office safety official had developed a list of 166
     duties, we found that the NASA Management Office did not have a documented policy
     for safety oversight procedures that defined the NASA Management Office’s oversight
     roles and responsibilities. The Management Office had not assessed resource
     requirements to fulfill its oversight responsibilities at JPL and had no strategic plan to
     oversee JPL safety activities. Moreover, the NASA Management Office had only one
     civil service employee to perform all activities related to overseeing the safety of
     approximately 5,000 NASA employees and contractors on the 155-acre JPL campus,

     8
         Root cause analysis is a structured evaluation method that identifies the root causes of an undesired
         outcome and the actions required to prevent recurrence. Root cause analysis helps determine what
         happened, how it happened, and why it happened and the identification of appropriate corrective actions
         to prevent recurrence.



iv                                                                                        REPORT NO. IG-11-004
OVERVIEW



  which contains 136 buildings and 61 structures. In our judgment, one person cannot
  effectively provide reasonable assurance that the requirements of NPR 8715.1 are being
  met at a facility as large as JPL.

  In addition, although OSMA conducted periodic Institutional/Facilities/Operational (IFO)
  audits intended to provide independent verification that JPL’s facilities and operations
  were in compliance with applicable NASA safety requirements, these audits did not
  identify instances of program noncompliance. Specifically, we found that the most recent
  IFO audit addressed only 9 of the 142 requirements (less than 7 percent) contained in
  NPR 8715.1 and excluded such key topics as financial management, inspection and
  abatement, safety and health training, recordkeeping, reporting requirements, and Center
  self-evaluation of occupational safety and health programs. In our judgment, it is
  essential to address these topics in order to independently verify that JPL is compliant
  with NASA safety requirements.

  Furthermore, OSMA did not use JPL’s AOA as a means to validate program resources.
  An AOA identifies a Center’s safety and health requirements and the resources required
  to meet these requirements. Although there was no contractual requirement for JPL to
  submit an AOA, JPL has submitted an AOA to OSMA since 2006. However, JPL
  management did not include in these AOAs all of the elements requested of Centers by
  OSMA. In addition, OSMA did not request any supporting documentation of JPL’s
  annual cost estimate and self-evaluation and did not follow the Headquarters Office Work
  Instruction 8700-GB05, Rev. E, “Development and Utilization of Annual Operating
  Agreements,” January 26, 2009, to evaluate whether the AOA included all of NASA’s
  safety and budgetary requirements. Had OSMA performed its evaluation of the JPL
  AOA in accordance with the Work Instruction, it would likely have identified the
  deficiencies in the JPL Occupational Safety Office’s budget management process
  previously discussed.

                                                              Management Action

  During the course of our audit, the JPL Occupational Safety Office took steps to improve
  its hazard reporting processes, including incorporating a risk assessment process when
  responding to employee reports of unsafe or unhealthful conditions and creating 24-hour
  telephone and Web access for JPL personnel to report mishaps, close calls, and
  unhealthful or unsafe conditions. In addition to the actions management has already
  taken, OSMA, the NASA Management Office, and the JPL Occupational Safety Office
  should take the following steps, which we believe will help ensure compliance with
  contractual safety requirements and reduce risk to personnel and facilities.

  Specifically, we recommended that the JPL Office of Safety and Mission Success
  reassess the JPL Occupational Safety Office resource planning process to maintain
  consistency with NPR 8715.1, to include implementing a budgetary process that
  prioritizes and establishes measurable and attainable program goals using a risk
  assessment process. In addition, the JPL Office of Safety and Mission Success should


REPORT NO. IG-11-004                                                                         v
                                                                                         OVERVIEW



     reassess labor resource and training requirements to ensure compliance with the prime
     contract and maintain staff competency.

     To improve management of the construction safety program and hazard reporting
     processes, the JPL Occupational Safety Office should implement a standardized
     construction safety inspection process that complies with JPL’s own internal operating
     procedures and NASA Procedural Requirements. The JPL Occupational Safety Office
     should also establish procedures that will improve its internal oversight of subcontractor
     safety plans and engineering design drawings and review employee competencies and
     develop training requirements that ensure that Construction Safety Group members
     obtain the training necessary.

     To improve the JPL mishap, close call, and employee hazard reporting system, the JPL
     Occupational Safety Office should reassess its reporting system to improve timeliness
     and completeness and ensure compliance with NPR 8715.1, establish procedures for
     documenting and disseminating lessons learned, conduct employee training to provide
     guidance on proper identification of root causes, and reinforce the concept of sharing
     lessons learned.

     To ensure compliance with contractual safety requirements and reduce risk to personnel
     and facilities, NASA should clearly define the roles and responsibilities of the NASA
     Management Office and OSMA in providing oversight of the JPL occupational safety
     program. In addition, the NASA Management Office should establish a written safety
     oversight policy and assess resource requirements to ensure that it has adequate resources
     to meet its responsibilities.

     Finally, OSMA should revise its audit processes to include steps that will ensure JPL’s
     compliance with NPR 8715.1 requirements and coordinate with the NASA Management
     Office to establish a contractual requirement for JPL to execute an effective AOA that
     complies with NASA procedures.

     We submitted a draft of this report to NASA and JPL management on September 24,
     2010, and requested a single, coordinated response to our recommendations. However,
     we received separate comments from NASA and JPL. Moreover, NASA’s comments
     were further divided into separate responses from the NASA Management Office and
     OSMA (see Appendix B).

     JPL and the NASA Management Office concurred with the majority of our
     recommendations and stated they would take steps to:

        •   reassess labor resource and training requirements to ensure compliance with the
            prime contract and maintain staff competency;

        •   implement a standardized construction safety inspection process that complies
            with internal operating procedures and NASA Procedural Requirements;



vi                                                                          REPORT NO. IG-11-004
OVERVIEW



      •   establish procedures that will improve internal oversight of subcontractor safety
          plans and engineering design drawings;

      •   review employee competencies and develop training requirements that ensure that
          Construction Safety Group members obtain necessary training;

      •   reassess the JPL Occupational Safety Office’s reporting system to improve
          timeliness and completeness and reinforce the concept of sharing lessons learned;

      •   clearly define the roles and responsibilities of the NASA Management Office and
          OSMA in providing oversight of the JPL occupational safety program; and

      •   establish a written safety oversight policy and assess resource requirements to
          ensure that the NASA Management Office has adequate resources to meet its
          responsibilities.

  These planned actions are responsive to our corresponding recommendations, and
  accordingly we consider these recommendations to be resolved. We will close these
  recommendations upon completion and verification of the proposed corrective actions.

  However, the comments provided by JPL to one recommendation and the comments
  provided by OSMA were unresponsive to our recommendations to:

      •   implement a budgetary process that prioritizes and establishes measurable and
          attainable program goals using a risk assessment process;

      •   assess internal audit processes and include steps to ensure JPL’s compliance with
          safety requirements;

      •   review JPL’s compliance with safety program requirements; and

      •   coordinate with the NASA Management Office to establish a contractual
          requirement for JPL to annually submit an AOA and ensure that future
          Agreements are reviewed in accordance with the applicable work instruction.

  Accordingly, we consider these recommendations to be unresolved.

  With respect to our recommendation regarding the budgetary process, JPL stated that the
  occupational safety budget process already uses risk assessments and has established
  measurable and attainable program goals that comply with safety program requirements.
  However, during our review we found no evidence of risk assessments being used to
  support budgetary decisions. Rather, we found that the JPL Occupational Safety Office
  budget was negotiated informally during “round table discussions.” In our judgment, JPL
  needs a formal, documented risk assessment process to effectively allocate funding to
  program elements based on prioritized risks.



REPORT NO. IG-11-004                                                                          vii
                                                                                           OVERVIEW



       JPL also stated that construction safety elements were assigned a unique project/task
       number in order to capture all related cost activities and the safety budget was distributed
       by expenditure type, such as labor and purchase order. In our judgment, this budgeting
       methodology does not lend itself to effective evaluation of whether functional areas like
       construction oversight, construction job walks, construction drawing review, fall
       protection, and safety and health training were adequately staffed and supported or
       whether sufficient funds were allocated to accomplish individual tasks.

       In response to our recommendations that the Chief of Safety and Mission Assurance
       assess the IFO audit processes and include steps to ensure JPL’s compliance with
       NPR 8715.1 and to review JPL’s compliance with NPR 8715.1, OSMA stated that the
       NPR is not applicable to contractor employees, including employees of JPL/Caltech, and
       therefore the criteria we cite for conducting the audit is not applicable. OSMA also stated
       that its requirements for the performance of IFO audits at JPL are contained within
       NPR 8705.6A, “Safety and Mission Assurance Audits, Reviews, and Assessments,”
       April 9, 2009, and only applicable specifically to the NASA Management Office.
       Further, OSMA stated that it was unfortunate that the predecessor to NPR 8715.1 was
       applied to the JPL contract because it has created confusion. OSMA concluded that, in
       order to avoid future misinterpretations regarding these requirements, it will review the
       applicable NPRs and the JPL prime contract to determine whether additional clarifying
       modifications are appropriate.

       In our judgment, NPR 8715.1 does apply to JPL because it is a federally funded research
       and development center wholly owned by the Federal Government. NPR 8715.1 states
       that the NPR is applicable to all NASA Centers and Component Facilities and to all
       NASA organizations, equipment, property, and facilities. OSMA’s implication that the
       most comprehensive NPR on safety requirements was included in the JPL contract by
       mistake and that the IFO audit process should only apply to the NASA Management
       Office at JPL does little to bolster our confidence in NASA’s oversight of the JPL safety
       program.

       In response to our recommendation that the Chief of Safety and Mission Assurance
       coordinate with the NASA Management Office to establish a contractual requirement for
       JPL to submit an AOA and ensure that future Agreements are reviewed in accordance
       with the applicable work instruction, OSMA stated that there are no established
       requirements for AOAs and that the call letter requesting Centers to submit the AOA
       provides guidance rather than a requirement. OSMA also stated that because the AOA is
       used to provide insight into the process and not as an oversight mechanism, making it a
       contractual requirement may be detrimental to open communication between JPL and
       NASA. These comments do not address our conclusion that had the AOA been reviewed
       using OSMA’s internal work instruction, the deficiencies in the budget management
       process we noted would likely have been discovered.

       Moreover, we disagree with OSMA’s assertion that the AOA is not intended as an
       oversight mechanism. The guidance provided in the July 2009 call letter states that “the
       completed AOA provides the Chief, SMA [Safety and Mission Assurance], with an


viii                                                                           REPORT NO. IG-11-004
OVERVIEW



  oversight tool to understand customer requirements at individual Centers and to establish
  a baseline to assess the effectiveness of the Center’s functional SMA [safety and mission
  assurance] processes.” In addition, the AOA JPL submitted provides that it establishes
  an agreement between the Director of JPL, the Director for the JPL Office of Safety and
  Mission Success, the NASA Chief of Safety and Mission Assurance, and the NASA
  Associate Administrator regarding Office of Safety and Mission Success services to be
  provided to JPL programs/projects, including goals and metrics, and the Office of Safety
  and Mission Assurance-funded tasks. The Chief of Safety and Mission Assurance’s
  signature on the AOA attesting to concurrence and the Associate Administrator’s
  signature attesting to approval implies that the document was reviewed and used as an
  oversight tool by OSMA.




REPORT NO. IG-11-004                                                                          ix
DECEMBER 13, 2010




                                                         CONTENTS

  INTRODUCTION
      Background __________________________________________ 1
      Objectives ___________________________________________ 2

  RESULTS
      The JPL Occupational Safety Office Did Not Effectively Identify
        Occupational Safety Program Budget Requirements _________ 4
      The JPL Occupational Safety Office’s Construction Safety
        Oversight Was Ineffective in Identifying Unsafe Acts and
        Unhealthful Conditions _______________________________ 8
      The JPL Occupational Safety Office’s Mishap, Close Call, and
        Hazard Reporting Processes Are Inefficient, Incomplete,
        and Untimely ______________________________________ 17
      The NASA Management Office and OSMA Did Not Ensure that
        Occupational Safety and Health Program Requirements
        Were Effectively Implemented at JPL ___________________ 24

  APPENDIX A
      Scope and Methodology ________________________________ 33
      Review of Internal Controls _____________________________ 34
      Prior Coverage _______________________________________ 34

  APPENDIX B
      Management Comments _______________________________ 35

  APPENDIX C
      Report Distribution ___________________________________ 44




REPORT NO. IG-11-004
DECEMBER 13, 2010




                                                                                      INTRODUCTION


Background

  The Jet Propulsion Laboratory (JPL) is a
                                                 Figure 2. NASA’s Jet Propulsion Laboratory
  federally funded research and development
  center owned by NASA and operated
  pursuant to contract by the California
  Institute of Technology (Caltech), a private
  nonprofit research university located in
  Pasadena, California. The primary mission
  of JPL is to conduct Earth science and deep
  space and interplanetary exploration.
  The prime contract between NASA and
  Caltech was awarded in November 2002
  and was initially valued at approximately
  $7.5 billion. 9 The contract covers all JPL
  research and development activities as well
  as the management and institutional operation of JPL. The JPL Director is a Caltech
  employee, appointed by the Caltech president with concurrence from the NASA
  Administrator. JPL has an annual budget of approximately $1.6 billion and a workforce
  of approximately 5,000 employees, of which about 50 are full-time civil service
  employees. The JPL Director oversees land, buildings, and structures (see Figure 2) with
  a value exceeding $1.7 billion. 10

  NASA’s Office of Safety and Mission Assurance (OSMA) is the NASA Headquarters
  office responsible for policy direction, functional oversight, and assessment of safety
  activities at NASA Centers and facilities. The organizations responsible for safety and
  health at JPL include the NASA Management Office and the JPL Office of Safety and
  Mission Success. The NASA Management Office reports to NASA’s Agency Operations
  and is staffed by civil service personnel who oversee the prime contract for NASA. The
  JPL Office of Safety and Mission Success is staffed by Caltech employees and is
  responsible for assessing and reducing mission risk and ensuring JPL compliance with
  Federal, state, and local laws and regulations, as well as contractually mandated safety
  requirements.


  9
      Through award fees and term extensions, the total contract value is potentially $15 billion, as described in
      the OIG audit report “NASA Should Reconsider the Award Evaluation Process and Contract Type for the
      Operation of the Jet Propulsion Laboratory (Redacted)” (IG-09-022-R, September 25, 2009).
  10
       Property replacement value as of October 26, 2009, for properties located in the United States. On-site
       property includes 197 buildings and structures throughout 212 acres.



REPORT NO. IG-11-004                                                                                                 1
                                                                                        INTRODUCTION



    The JPL Office of Safety and Mission Success manages JPL’s Occupational Safety
    Program Office (JPL Occupational Safety Office). Within the JPL Occupational Safety
    Office is a Construction Safety Program
                                              Figure 3. Workers in Collapsed, Unshored Trench
    Group (Construction Safety Group),                  at JPL
    which oversees construction project
    safety at JPL. JPL Occupational Safety
    Office personnel work with designers,
    facilities construction managers,
    coordinators, subcontractors, and
    contract personnel to assist them in
    complying with safety requirements
    from project preparation to project
    completion. The Construction Safety
    Group provides safety oversight during
    all phases of construction by identifying
    and correcting potential safety and       Source: Vanir Construction Management, Inc. (July 18,
    health-related problems.                  2008)


    From October 2006 through March 2009, JPL initiated 773 construction projects with a
    total cost of approximately $130 million. The most significant project was the
    construction of the Flight Projects Center, with an estimated cost of $66 million over a
    2-year period. In January 2009, the NASA Office of Inspector General (OIG) received
    information regarding two mishaps that occurred during construction of the Flight
    Projects Center. The first incident was a trench collapse during excavation that damaged
    critical fiber-optic telecommunication        Figure 4. Workers Removing Concrete Forms
    cables and exposed workers to a
    potential engulfment hazard during
    repair work (see Figure 3). The second
    incident occurred during the removal of
    concrete forms (see Figure 4), when a
    worker’s finger was crushed between a
    concrete form and wall resulting in the
    partial amputation of the finger.


Objectives

    The audit’s overall objective was to         Source: Vanir Construction Management, Inc.
    determine whether JPL implemented            (September 4, 2008)
    appropriate internal controls to provide
    effective oversight of contractors and subcontractors performing on-site construction
    projects. Specifically, we examined whether the JPL Occupational Safety Office had

        •   implemented an effective process to report, investigate, and document mishaps
            and close calls and to communicate lessons learned; and


2                                                                              REPORT NO. IG-11-004
INTRODUCTION



      •   established adequate oversight procedures to ensure contractor and subcontractor
          compliance with Federal, state, and NASA safety requirements.

  During the course of our fieldwork, we found that OSMA had not closed fiscal year (FY)
  2007 audit findings concerning facility safety, lifting devices such as cranes, and mishap
  reporting, and we noted that similar deficiencies remained. As a result, we expanded our
  audit objectives to determine whether NASA conducted sufficient oversight of the JPL
  Occupational Safety Office to ensure that contractually mandated occupational safety and
  health requirements were effectively implemented at JPL.




REPORT NO. IG-11-004                                                                           3
                                                                                                           RESULTS




                         THE JPL OCCUPATIONAL SAFETY OFFICE DID NOT
                                  EFFECTIVELY IDENTIFY OCCUPATIONAL
                               SAFETY PROGRAM BUDGET REQUIREMENTS

               We found that the JPL Occupational Safety Office did not effectively identify and
               monitor safety-related budget resource requirements for JPL. NASA Procedural
               Requirements (NPR) 8715.1 requires Centers’ budget submissions to include
               appropriate financial estimates to effectively administer NASA’s Occupational
               Safety and Health Program. 11 However, the JPL Occupational Safety Office’s
               budget management process did not prioritize safety-related tasks; did not identify,
               track, monitor, or assess progress on construction safety-related functions; and could
               not be used to determine whether the staff resources dedicated to safety-related
               functions were sufficient. Consequently, JPL officials had no assurance that they
               allocated sufficient resources to perform construction safety inspections and other
               programmatic oversight.


Contract and Policy Requirements for Allocation of Resources to
  the Occupational Safety Program

    The JPL prime contract requires that JPL management ensure that resources are allocated
    effectively to address environmental, safety and health, programmatic, and operational
    considerations. 12 The contract also requires JPL management to protect the public and
    employees from injury or illness and facilities and work products from damage, as well
    as ensure that JPL’s environmental, safety, and health system is integrated with business
    processes for work planning, budgeting, authorization, execution, and change control. 13
    In addition, the prime contract requires that JPL’s budget submission include appropriate
    resources to effectively implement and administer NASA’s Occupational Safety and
    Health Program, including sufficient personnel, abatement of unsafe or unhealthful
    working conditions, safety and health equipment, contracts to identify or evaluate unsafe
    working conditions, promotional cost, technical information, medical surveillance
    programs, and safety and health training, in addition to inspectors having sufficient
    training and experience in safety and health to recognize and abate safety and health
    hazards. 14



    11
         NPR 8715.1, “NASA Occupational Health and Safety Programs w/Change 3 (02/13/06).”
    12
         Section H-46, “Integration of Environment, Safety, and Health, into the Contractor’s Management
         System.”
    13
         Change control is the methodical way of documenting changes in activities, policies, procedures, and
         requirements and of keeping up-to-date records available for all concerned personnel.
    14
         NPR 8715.1, Section 2.9, “Financial Management.”



4                                                                                        REPORT NO. IG-11-004
RESULTS



Budget Management Process Lacked the Ability to Identify, Track,
  Monitor, and Assess JPL’s Occupational Safety Program

  Our review of the JPL Occupational Safety Office’s FY 2007 through FY 2009 annual
  budget plans found no documentation linking the budget to the Office’s areas of
  responsibility. For example, in FY 2009 the $424,000 the JPL Occupational Safety
  Office budgeted for the Construction Safety Group was distributed by expenditure type –
  such as labor, purchase order, consulting and professional services, training, and travel –
  rather than according to the functions identified in JPL’s FY 2009 Annual Operating
  Agreement (AOA): confined space entry, asbestos and lead oversight, fall protection,
  construction drawing reviews, construction job walks, construction oversight, and safety
  and health training. An AOA defines a Center’s safety and health requirements and the
  resources required to meet those requirements, as well as the metrics used to measure the
  effectiveness and efficacy of safety and mission assurance processes. Because the JPL
  Occupational Safety Office did not align its resources with the functions identified in the
  JPL AOA, it could not effectively evaluate whether these functions were adequately
  staffed and supported or whether sufficient funds had been allocated to accomplish them.
  Moreover, the JPL Occupational Safety Office did not use a risk assessment to determine
  resource requirements or document any budget or personnel resource shortages. 15 This
  increased the potential that contractors, subcontractors, and facilities would be placed at
  risk of personal injury or property damage.


Resources Were Not Effectively Managed to Fulfill Essential Tasks

  The JPL Occupational Safety Office was unable to determine whether allocated funding
  was sufficient to meet the requirements of the prime contract. Specifically, there was no
  assurance that an adequate number of qualified safety professionals were available to
  perform construction safety oversight inspections and other programmatic oversight
  functions such as fall protection, construction drawing review, and construction job
  walks. In addition, we found a lack of planning to ensure that Construction Safety Group
  members received the necessary training to adequately perform their oversight duties
  during construction of the Flight Projects Center.

  Staffing Concerns. In FY 2009, the Occupational Safety Office’s annual budget
  reflected $424,000 for the Construction Safety Group, including labor costs of $365,000
  for three full-time staff members – one supervisor and two construction safety specialists.
  These two specialists were responsible for supporting seven major functions within three
  diverse safety programs (confined space entry, asbestos and lead oversight, fall
  protection) and four oversight responsibilities (construction drawing review,

  15
       NPR 8715.3C states that the primary purpose of risk assessment is to identify and evaluate risks to help
       guide decision making and risk management regarding actions to ensure safety and mission success.
       Risk assessment should use the most appropriate methods that adequately characterize the probability,
       consequence severities, and uncertainty of undesired events and scenarios.



REPORT NO. IG-11-004                                                                                              5
                                                                                                             RESULTS



    construction job walks, construction safety oversight, and safety and health training), as
    well as responding to calls from employees reporting unsafe and unhealthful conditions.
    In our judgment, two construction safety specialists are not sufficient to cover all required
    safety functions given JPL’s size and the scope of construction projects at the Center. 16

    Training Concerns. The lack of planning was also evident in the JPL Occupational
    Safety Office’s budgeting for training. As of July 2009, the JPL Occupational Safety
    Office had budgeted $5,000 but expended $14,000 for the training of 24 staff members.
    This equated to an average of about $200 planned and $583 spent per employee. As
    evidenced by the amount spent as compared to planned, in our judgment, the average
    planned amount was insufficient to train all staff members and to ensure that the
    Construction Safety Group’s specialists received adequate training to maintain the
    competency to fulfill their inspection and oversight responsibilities. For example, the
    tuition for the Occupational Safety and Health Administration (OSHA) Training
    Institute’s Concrete, Forms, and Shoring course is $800 alone, not including travel and
    per diem. 17


Recommendation, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. We recommended that the Director of the JPL Office of Safety and
Mission Success reassess the JPL Occupational Safety Office’s resource planning process to
maintain consistency with NPR 8715.1 and the AOA functional requirements, to include the
following actions:

           a. implement a budgetary process that uses risk assessments and establishes
              measurable and attainable program goals based on NPR 8715.1 safety program
              requirements;

           b. reassess labor resource requirements to ensure that JPL’s safety program is
              implemented in accordance with the prime contract; and

           c. evaluate funding requirements and allocate sufficient funding to provide training
              to develop and maintain staff competency.

    Management’s Response. JPL management responded with comments provided by the
    Manager of the Finance and Contract Management Division. With regard to
    recommendation 1.a, JPL stated that the occupational safety budget process already uses
    16
         We note that OSMA’s March 2007 Institutional/Facilities/Operational (IFO) Audit of the Occupational
         Safety Program Office also contains a finding that questions the adequacy of staffing for facilities design
         review for all of the ongoing projects at JPL.
    17
         This course introduces the student to principles of forms and shoring and the quality of concrete, hot and
         cold weather placing practices, and inspection procedures. Topics include relevant OSHA standards,
         curing of concrete, form removal, and American Society for Testing and Materials (ASTM) standards on
         sampling concrete.



6                                                                                           REPORT NO. IG-11-004
RESULTS



  risk assessments and has established measurable and attainable program goals that
  comply with safety program requirements of NASA Procedures and Guidelines 8715.1; 18
  that an annual gap analysis is performed relative to the JPL prime contract requirements,
  industry standards, and other regulatory requirements and is used to support budget
  strategy and specific funding needs; and that construction safety elements were assigned
  a unique project/task number in order to capture all related costs, such as personnel
  staffing, training, testing, publication, and document costs. With regard to the other parts
  of our recommendation, JPL stated that it will reassess labor resource requirements
  annually to ensure that the JPL safety program is implemented in accordance with the
  prime contract and that annual funding requirements will be reevaluated and additional
  training provided to develop and maintain staff competency.

  Evaluation of Management’s Response. We find JPL’s s comments to
  recommendation 1.a to be nonresponsive and consider the recommendation to be
  unresolved. During our review of the JPL safety budget process we found no evidence of
  risk assessments being used to support budgetary decisions. Rather, we found that the
  JPL Occupational Safety Office budget was developed during informal “round table
  discussions.” In our judgment, JPL needs a formal, documented risk assessment process
  in order to effectively allocate funding to program elements based on prioritized risks. In
  addition, we do not believe that assigning unique project/task numbers and distributing
  the safety budget by expenditure type is sufficient to allow the JPL Occupational Safety
  Office to effectively evaluate whether sufficient funds have been allocated to support
  such functional areas as construction oversight, construction job walks, construction
  drawing review, fall protection, and safety and health training.

  We find management’s planned actions in regard to recommendations 1.b and 1.c to be
  responsive. Accordingly, these recommendations are resolved and will be closed upon
  completion and verification of management’s corrective action.




  18
        On March 30, 2004, NASA renamed NASA Procedures and Guidelines 8715.1 as NPR 8715.1, “NASA
       Occupational Health and Safety Programs,” without substantially changing its substance. Hereafter, we
       refer to the NASA Procedures and Guidelines as the NPR.



REPORT NO. IG-11-004                                                                                           7
                                                                                                               RESULTS




                                       THE JPL OCCUPATIONAL SAFETY OFFICE’S
                                        CONSTRUCTION SAFETY OVERSIGHT WAS
                                      INEFFECTIVE IN IDENTIFYING UNSAFE ACTS
                                                AND UNHEALTHFUL CONDITIONS

                We found that the JPL Occupational Safety Office’s construction safety oversight
                was ineffective in identifying unsafe acts and unhealthful conditions. The oversight
                processes did not follow NPR 8715.1 requirements to identify, disposition, track, and
                abate safety and health concerns or JPL internal procedures for construction site
                inspections. We attribute this ineffectiveness to high turnover within the
                Construction Safety Group and a lack of sufficient training for Group members. In
                addition, we found that JPL’s reviews of construction documents overlooked unsafe
                designs and accordingly JPL accepted structures that were not built in compliance
                with California OSHA standards. Consequently, NASA incurred additional costs to
                correct these unsafe conditions.


JPL Standardized Inspection Process

    NPR 8715.1, Chapter 4, “Inspection and Abatement,” includes inspection requirements
    for both construction projects and employee-reported unsafe and unhealthful conditions.
    The NPR requires all inspections to be documented and unsafe or unhealthful conditions
    to be documented on a standardized form, “Notice of Unsafe or Unhealthful Condition”
    (NASA Form 1390), or an equivalent form approved by the Designated Agency Safety
    and Health Official. 19 An abatement plan is required for conditions that take more than
    30 calendar days to correct. A summary of all open abatement plans and a listing of
    those closed during the reporting period are to be provided to the Designated Agency
    Safety and Health Official or designee as part of the Center’s input to the “Annual
    Summary - Occupational Injuries/Illnesses Report” required by NPR 8715.1. The NPR
    also requires that a risk assessment process that considers the elements of severity and
    probability of occurrence be used to analyze and evaluate overall risk potential. In
    addition, the NPR states that safety and health inspectors are required to have sufficient
    documented training and experience to recognize and evaluate safety and health hazards
    in the workplace and suggest corrective actions.

    19
         NPR 8715.1, paragraph 2.1.2, states that the Designated Agency Safety and Health Official is the Chief
         Health and Medical Officer. The NPR cites OSHA as defining a Designated Agency Safety and Health
         Official as an official designated by the agency head with sufficient authority and responsibility to
         effectively represent the interest of, and support the agency head in the management and administration
         of, the agency’s occupational safety and health program. The Designated Agency Safety and Health
         Official is responsible for ensuring that safety and health officials are appointed at appropriate levels with
         adequate budgets and staffs to implement occupational safety and health programs at all operational
         levels as required by the OSHA provisions set forth in Part 1960 of Title 29 of the Code of Federal
         Regulations (C.F.R.); specifically, Part 1960.6, paragraph (c).



8                                                                                             REPORT NO. IG-11-004
RESULTS



  JPL’s internal procedures for the construction oversight process require all inspectors to
  use a standardized checklist and require the Construction Safety Group to:

         •   document any deficiencies observed on construction sites using the Construction
             Safety Inspection Report;

         •   use the data in the inspection database to track trends and leading indicators;

         •   communicate trends and leading indicators to the Facilities Construction and
             Engineering Group; and

         •   conduct a follow-up inspection to ensure that all noted observations have been
             corrected. 20


JPL Occupational Safety Office Inspections and Document
  Reviews Did Not Detect Workplace Hazards

  The JPL Occupational Safety Office did not apply consistent oversight procedures to
  review subcontractor safety plans and engineering drawings for compliance with safety
  standards. In addition, JPL Occupational Safety Office inspectors did not recognize
  safety hazards during the document review process, the building and structural inspection
  process, and the hazard abatement process.

  We reviewed subcontractor safety plans for five construction and facility projects at JPL
  that were active since October 2006 and found that two of these projects were not
  adequately reviewed by the Construction Safety Group. For example, in 2009 JPL
  completed construction of Building 224, a sewage lifting station. The Construction
  Safety Group reviewed and approved the project’s design drawings and accepted the
  facility as built. However, we found that the building was designed and constructed with
  a rooftop parapet less than 36 inches in height, which does not comply with California
  OSHA standards requiring 42-inch guardrails. 21 As a result, JPL was required to spend
  an additional $11,836 to build guardrails to abate a potential fall hazard.

  In another case, JPL subcontracted a roof replacement project for 13 buildings. The
  Construction Safety Group reviewed and approved the subcontractor safety plan for
  installing the rooftop fall restraint/arrest systems. However, when we compared the
  installed systems with the manufacturer’s installation guide, we found that they had not
  been installed in accordance with manufacturer recommendations. We contacted the
  manufacturer and confirmed our concerns regarding the hardware used and the

  20
       JPL Rules DocID 45420, “Safety Inspections,” and Occupational Safety Program Office, “Internal
       Procedures for Inspections of Construction Sites,” July 21, 2006.
  21
       California OSHA standards require 42-inch guardrails (or fall restraint/fall arrest systems) at working
       levels more than 30 inches above the floor (California Code of Regulations, Title 8, Chapter 4,
       Subchapter 7, “General Industry Safety Orders,” §3207 and §3210).



REPORT NO. IG-11-004                                                                                             9
                                                                                                         RESULTS



     placement of the anchor points (see Figure 5). The placement allows the cable to rub
     against the sharp, inside edge of the anchor point eyelets, which places additional stress
     on the restraint/arrest cable. Over time, this additional stress could damage the cable and
     lead to the failure of the system.


                                        Figure 5. Rooftop of Building 156
                                          Rooftop Fall Restraint System




                           Source: Kari Helman of Helman Architects (February 24, 2009)

     Workers have to connect/disconnect their safety harness lanyard from the lifeline while traveling
     between the rooftop anchors (illustrated by yellow circles), which were improperly installed.



     According to the manufacturer, this faulty installation voided the manufacturer’s
     warranty and placed personnel at increased risk of injury. In addition to the
     manufacturer’s concerns, we also observed that the system was installed in a way that
     required workers to disconnect their safety harness lanyard and then reconnect it at each
     intermediate anchor point. In our judgment, this disconnecting and reconnecting
     increases the potential for a slip and fall. To prevent the likelihood of a slip and fall, a
     double lanyard system needs to be used: workers would attach their first lanyard to the
     restraint/arrest cable; upon arrival at the next intermediate anchor point, workers would
     simply connect their second lanyard ahead of that anchor point before disconnecting their
     first lanyard from the restraint/arrest cable. This process would be repeated as they



10                                                                                        REPORT NO. IG-11-004
RESULTS



  traveled along the restraint/arrest cable, thus ensuring continuous protection from a slip
  and fall.

  When we notified the JPL Office of Safety and Mission Success of these issues, it
  directed the JPL Occupational Safety Office to correct the problem. However, in our
  judgment, the JPL Occupational Safety Office’s efforts were inadequate because the
  corrective action it implemented still left employees with no fall protection within 6 feet
  of the roof’s edge (see Figure 6). In addition, the JPL Occupational Safety Office did not
  correct the placement of the cable shock absorber, which had been improperly installed
  on the down-slope side of the rooftop and could not absorb the energy generated by a fall.

                            Figure 6. Rooftop of Building 161 – Rooftop
                            Access and Distance to Fall Restraint System




                                    Source: NASA OIG (July 23, 2009)

       (a) Inadequate fall restraint system to      (b) Note distance (red arrow) from ladder and
       prevent an employee from reaching a fall     edge of roof to the nearest fall arrest system
       point. The most commonly used fall           (in yellow circle at right), which is more than 6
       protection system is standard guardrails     feet from roof edge. Employees accessing this
       and ladders with self-closing gates or a     area have no fall protection from the ladder
       properly installed personal fall arrest      (yellow circle at left) to the fall arrest system
       system with documented procedures and        noted by the yellow circle at right, which is an
       training.                                    end point of the cable lifeline, with a shock
                                                    absorber. However, the shock absorber is
                                                    improperly installed on the down-slope end of
                                                    the cable instead of the up-slope end of the
                                                    cable. If an employee was attached to the
                                                    cable and fell off the roof edge, the shock
                                                    absorber would not absorb the shock of the
                                                    fall.




REPORT NO. IG-11-004                                                                                    11
                                                                                                           RESULTS



     These rooftop hazards were part of 47 rooftop hazards identified in a 2003 study of JPL
     by American Safety & Emergency Response. 22 However, there was insufficient
     documentation for us to determine whether all of the hazards in the report had been
     adequately addressed at the time of our audit.


Effective Inspection Process Should Identify and Prevent Hazards

     An effective hazard control program should include an inspection process that identifies
     hazards in the workplace. Periodic inspections should identify existing or potential
     hazards and provide strategies to eliminate or control them. Construction Safety Group
     members are tasked with conducting inspections routinely for construction-related work
     as well as inspections of employee-reported unsafe and unhealthful conditions. However,
     we found that this inspection process was inadequate.

     Flight Projects Center Construction Inspections Were Inconsistent. We found that
     safety representatives performed their inspections inconsistently and sporadically. The
     Flight Projects Center was under construction from April 2007 through May 2009.
     During this 2-year period, five safety representatives and three supervisors rotated into
     and out of the Construction Safety Group and inspections were not performed routinely,
     as required by JPL internal procedures: 1 inspection was performed in June 2007, 1 in
     October 2007, and 47 between November 2007 and April 2008. There was no record of
     any other site visits until July 2008, and inspections of the site after July 2008 were
     recorded as part of inspectors’ daily JPL-wide construction site visits.

     In addition, the inspectors did not follow a consistent practice of recording and following
     up on inspection results. JPL’s internal procedures require inspectors to use a
     standardized checklist to ensure all safety concerns are addressed. However, only 9 of
     the 49 inspections of the Flight Projects Center were documented on this checklist.
     Although the remaining inspection records contained pictures and written descriptions of
     noted safety concerns, without the checklists there was no assurance that all relevant
     areas had been inspected. In addition, recording inspection results on a uniform checklist
     provides a mechanism for accumulating data in a consistent manner so that recurring acts
     and conditions can be identified.

     We also found that there was no consistent practice for resolving unsafe conditions that
     the inspectors noted. We found that after inspection results were provided to Caltech
     personnel, there was no follow-up process to track and obtain resolution of the noted
     conditions. As a result, JPL and NASA had no assurance that the subcontractor was
     notified of the inspection results or took steps to abate the unsafe conditions. This lack of
     follow-up minimized the effectiveness of the inspection process.


     22
          Assessment of Building Rooftops for Fall Protection and Fall Protection Systems Phases I & II, Contract
          #1252375, as prepared by American Safety & Emergency Response, conducted June–November 2003.



12                                                                                        REPORT NO. IG-11-004
RESULTS



  The JPL Occupational Safety Office Did Not Consistently Perform Objective
  Assessments of Employee-Reported Safety Hazards. We determined that the actions
  the JPL Occupational Safety Office took in response to employee-reported incidents of
  unsafe acts were not in accordance with NPR 8715.1 requirements and that the
  Occupational Safety Office did not consistently inform the reporting employees that the
  unsafe acts or conditions had been addressed. The NPR requires Centers to conduct
  inspections as soon as possible but no later than 3 days after notification of serious
  conditions or 20 days after notification of less serious conditions. The NPR defines a
  serious condition as a hazard, violation, or condition for which there is a substantial
  probability that death or serious physical harm could result. The NPR also requires the
  use of a risk assessment process to analyze and classify overall risk potential, abate and
  report those conditions that were abated within 30 days, prepare abatement plans for
  those conditions requiring more
                                                        Figure 7. Crane Operations
  than 30 days to correct, and
  establish a closed-loop process to
  provide assurance to the reporting
  employees that the unsafe act or
  condition was successfully
  mitigated.

  For example, the JPL Occupational
  Safety Office received two reports
  from employees that an overhead
  construction crane extended into
  pedestrian and vehicle traffic in
  2008. In response to these reports,
  the Occupational Safety Office
  raised the matter with the
  subcontractor, which claimed that it
  was unsure whether the crane was
  physically able to extend over the
  road and sidewalk and that in any
  event the crane was not carrying a
  load at the time of the report. Based
  on the subcontractor’s response, the
  JPL Occupational Safety Office
  discounted the employees’ reports as
  a “perception issue.” In reaching this Source:   Undated photo provided anonymously by a JPL
                                           employee in May 2009.
  conclusion, the JPL Occupational
                                           Note: For purposes of illustration, the crane cable is colored
  Safety Office did not record any         green, while the red line shows that the load was directly
  objective investigation that would       above roadway.
  validate the subcontractor’s
  explanation regarding the length of
  the crane’s extension or assess whether the crane arm itself, even in the absence of a load,
  was a potential hazard to pedestrian and vehicle traffic.


REPORT NO. IG-11-004                                                                                        13
                                                                                           RESULTS



     A JPL employee provided the NASA OIG with a photograph (see Figure 7) that showed
     the crane extending beyond the construction site into the road and sidewalk. However,
     the JPL Occupational Safety Office took no steps to investigate the matter beyond
     speaking with the subcontractor operating the crane. In our judgment, the JPL
     Occupational Safety Office’s dismissal of the employees’ concerns without further
     inspection left a potential hazard unmitigated and served to discourage employees from
     reporting unsafe and hazardous conditions in the future.

     Employee-Reported Incidents and Inspection Findings Were Not Prioritized and
     Properly Addressed. NPR 8715.1 requirements are designed to ensure that safety
     resources address unsafe conditions and hazards reported by employees. Once potential
     hazards have been brought to the attention of the safety office, they are required to be
     assessed commensurate with their degree of risk. Risk is determined by assessing the
     severity of the hazard and the likelihood of occurrence. NPR 8715.1 states that imminent
     hazardous conditions (the highest degree of risk) must be addressed within 24 hours,
     serious conditions within 3 working days, and less than serious conditions within
     20 working days of being reported. We found that in the majority of cases, JPL
     addressed all reported hazards as though they were of equal risk. For example, we
     reviewed the 95 unsafe or unhealthful incidents reported by JPL employees from
     October 1, 2007, through July 9, 2009, and found that in only 2 instances was there any
     evidence that the JPL Occupational Safety Office had conducted any kind of risk
     assessment or hazard prioritization. Further, of those 95 reported incidents, only
     7 showed that the Office had conducted additional inspections to ensure that the hazard
     was abated and only 8 showed that the office had provided follow-up information to the
     reporting employees affected by the reported hazard. In the absence of an effective risk
     management process, the JPL Occupational Safety Office cannot ensure that reported
     safety hazards are assessed and addressed in a timely and effective manner.


Employee Turnover and Insufficient Training Contributed to the
 Inspection Deficiencies

     High employee turnover within the Construction Safety Group resulted in the loss of
     project knowledge. In addition, safety representatives did not receive sufficient training
     to educate them in identifying and abating the types of hazards typically found during
     construction projects.

     Since October 2006, three Construction Safety Group supervisors have been reassigned
     to other groups. The duration of the tenures of these supervisors ranged from 6 to 17
     months. During construction of the Flight Projects Center, five different safety
     representatives were assigned to the project, with the length of their assignments ranging
     from 2 weeks to 12 months. In our judgment, the short duration of these assignments
     contributed to deficiencies in the JPL Occupational Safety Office’s inspection program
     because the safety representatives were provided inconsistent direction and possessed
     varying levels of expertise.


14                                                                          REPORT NO. IG-11-004
RESULTS



  Moreover, Construction Safety Group members received minimal training related to
  construction safety. We reviewed the training records of the four most recent
  construction safety representatives. Collectively, they received about 600 hours of
  training, half of which was safety-related. However, only two of their courses were
  construction-related and neither appeared to be training specifically designed to educate
  safety professionals in identifying and abating the types of hazards typically found during
  construction projects. 23


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 2. We recommended that the JPL Occupational Safety Program Office
Manager implement a standardized safety inspection process that meets JPL Internal
Standard Operating Procedures and NASA Procedural Requirements for construction safety.

  Management’s Response. JPL management responded with comments provided by the
  Manager of the Finance and Contract Management Division. JPL partially disagreed
  with the findings that led to our recommendation, stating that the safety inspections
  performed during construction of the Flight Projects Center were consistent with
  applicable guidelines and that inspections by the JPL Occupational Safety Office were
  augmented by subcontractor inspections. Nevertheless, JPL agreed to take corrective
  action, stating that it would reassess its compliance with its internal operating procedures
  and reinstitute use of the standardized checklist to document inspections and deficiencies
  and track unsafe conditions. Management expects to complete the proposed actions by
  December 30, 2010.

  Evaluation of Management’s Response. As discussed in our report, we found no
  standardized method to document safety deficiencies. In addition, the frequency of the
  inspections performed as well as how the deficiencies were documented varied with each
  inspector. JPL’s internal procedures require inspectors to use a standardized checklist to
  ensure all safety concerns are addressed. However, only 9 of the 49 inspections we
  reviewed were documented using this checklist. In addition, we found that JPL had no
  formal follow-up process to track and obtain resolution of unsafe conditions. As a result,
  JPL could not provide assurance that deficiencies were always communicated to the
  subcontractor or that the subcontractor had taken appropriate steps to abate unsafe
  conditions.

  Although we do not agree with JPL management’s factual assertions, we find the
  proposed actions to be responsive to our recommendation and therefore consider the
  recommendation to be resolved. We will close the recommendation upon completion and
  verification of the proposed corrective actions.
  23
       For example, the inspectors could have taken courses offered by the OSHA Training Institute such as
       Cranes and Rigging Safety for Construction; Excavation, Trenching and Soil Mechanics; Concrete,
       Forms, and Shoring; Principles of Scaffolding; and Fall Arrest Systems.



REPORT NO. IG-11-004                                                                                         15
                                                                                             RESULTS



Recommendation 3. We recommended that the JPL Occupational Safety Program Office
Manager implement procedures that will improve internal oversight for reviewing
subcontractor safety plans, engineering design drawings, and conducting final inspections.

     Management’s Response. JPL management partially disagreed with the findings that
     led to this recommendation but agreed to take corrective action. JPL agreed that the
     construction of Building 224 was noncompliant with California OSHA regulations and
     that the fall protection system was not installed in accordance with the manufacturer’s
     recommendations. However, JPL insisted that it provided consistent oversight of
     subcontractor safety plans and engineering drawings and that the JPL Occupational
     Safety Office was not responsible for the installation methods or specifications of the
     rooftop fall restraint and arrest system.
     With regard to corrective action, JPL management stated that it will work more closely
     with the JPL Facilities Division and the System Safety Program Office to improve the
     oversight process for reviewing subcontractor safety plans and engineering design
     drawings and for conducting final inspections. In addition, JPL stated that design review
     procedures have been revised to improve the review process.
     Evaluation of Management’s Response. Although we disagree with JPL’s assessment
     of its oversight responsibilities, we find its proposed corrective action to be responsive to
     our recommendation. Accordingly, the recommendation is resolved and will be closed
     upon completion and verification of the proposed corrective action.

Recommendation 4. We recommended that the JPL Occupational Safety Program Office
Manager review employee competencies and develop training requirements that ensure that
Construction Safety Group members obtain the training necessary to gain and maintain
professional competency.

     Management’s Response. JPL management disagreed that the Construction Safety
     Group lacked sufficient training, but nevertheless agreed to take corrective action, stating
     that it will ensure that qualified safety professionals are hired and that construction safety
     personnel receive a minimum of 100 hours of construction safety-related training and
     professional development. JPL also said that it will ensure that its employees are cross-
     trained and that continuous training is provided to all personnel.
     Evaluation of Management’s Response. As discussed in our report, we found that the
     four most recent construction safety representatives had collectively received about 600
     hours of training, half of which was safety-related. However, only two courses were
     construction-related and neither appeared to be training that was specifically designed to
     educate safety professionals in identifying and abating the types of hazards typically
     found during construction projects. In our judgment, the lack of specific training
     contributed to safety inspection program deficiencies.
     Despite this factual disagreement, we find JPL’s proposed action to be responsive to our
     recommendation. Accordingly, the recommendation is resolved and will be closed upon
     completion and verification of the proposed corrective action.


16                                                                            REPORT NO. IG-11-004
RESULTS




                                    THE JPL OCCUPATIONAL SAFETY OFFICE’S
                                          MISHAP, CLOSE CALL, AND HAZARD
                                    REPORTING PROCESSES ARE INEFFICIENT,
                                               INCOMPLETE, AND UNTIMELY

             We found that the JPL Occupational Safety Office did not implement an efficient
             and effective mishap, close call, and hazard reporting system in accordance with
             prime contract requirements. The JPL Occupational Safety Office’s reporting
             system involved multiple reporting processes and, therefore, did not efficiently
             consolidate incident data so that recurring problems could be identified. In addition,
             because the JPL Occupational Safety Office did not identify the root causes of
             reported incidents it could not effectively recognize and apply lessons learned.
             Finally, the JPL Occupational Safety Office did not ensure that mishaps and close
             calls were properly documented and that all incident data was timely recorded in the
             NASA Incident Reporting Information System (IRIS). IRIS is the Agency-mandated
             system for reporting, recording, and tracking all NASA mishaps, close calls, and
             post-incident corrective actions. The untimely reporting of safety incidents reduces
             the effectiveness of IRIS and limits the capability of other NASA Centers to prevent
             similar hazardous conditions.


NASA Requires Timely and Accurate Reporting of Mishaps, Close
 Calls, and Hazards

  NASA reporting requirements are applicable to JPL via the contract between NASA and
  Caltech. 24 The purpose of the NASA reporting system is to report, investigate, and
  document mishaps, close calls, and previously unidentified serious workplace hazards to
  prevent recurrence of similar accidents. 25 The reporting requirements specify how to
  respond to mishaps or close calls from discovery through corrective action and closure;
  contain requirements for classifying mishaps, establishing investigation authorities, and
  performing investigations; formalize notification, analysis, and reporting obligations;
  describe roles and responsibilities; provide instruction on release of information to the
  public; and specify the interaction between NASA, Federal and state occupational safety
  24
       Relative to mishap, close calls, and hazard reporting, the contract between NASA and Caltech
       incorporated the following reporting requirements applicable to JPL. Center (to include Caltech and its
       subcontractors) reporting requirements are per NPD 8621.1H, “NASA Mishap and Close Call Reporting,
       Investigation, and Recordkeeping,” June 2, 2000, which is incorporated in accordance with contract
       clause H-7(d)(3). Employee reporting of mishap, close call, and hazards was incorporated in the prime
       contract based on requirements in NPR 8715.1, which is incorporated in accordance with contract clause
       H-27(a)(18).
  25
       NASA defines a mishap as an unplanned event that results in injury to personnel or damage to property.
       NASA categorizes mishaps based on the severity of injury to personnel or total cost of damage to
       property. Mishap classifications range from a Type A Mishap, which is the most severe, to a close call,
       which is the least severe.



REPORT NO. IG-11-004                                                                                             17
                                                                                                        RESULTS



     and health administrations, the National Transportation Safety Board, and other
     Government agencies.


Reporting Process Was Inefficient, Incomplete, and Untimely

     We found that the JPL Occupational Safety Office had multiple reporting mechanisms for
     both employee and Center reporting. These multiple mechanisms made the data
     consolidation process cumbersome and the identification of recurring problems difficult.
     Employee-reported incidents of unsafe and unhealthful conditions were collected through
     five mechanisms: Safety Early Reporting System (online reporting), Safety Concerns in
     General (e-mail, telephone to JPL Occupational Safety Office staff), Immediate Mishap
     and Close Call (incident notification telephone line), Environmental Health and Safety
     Hotline (anonymous hazard reporting system), and Safety Concerns from Mishap
     Reporting System (JPL Occupational Safety Office internal tracking of safety concerns).
     Each format recorded incident data differently and with varying levels of detail.

     Center reporting of mishaps and close calls was made through NASA’s IRIS, the JPL
     Mishap Reporting System, and a subcontractor database. JPL Occupational Safety Office
     personnel explained that the separate mechanisms were necessary to protect the personal
     data of the individuals involved. For example, the JPL Mishap Reporting System did not
     have the capability to filter personal data before uploading information to IRIS.
     Similarly, a separate subcontractor database was developed to avoid disclosing JPL
     employee personal data to subcontractors. As a result, transfers of information from one
     reporting mechanism to another are made manually. This process allowed for the
     discretionary reporting of incident information and the potential for errors when
     transferring data from one system to another.

     The following table contains a summary of the incidents reported by subcontractors and
     JPL personnel to the JPL Occupational Safety Office that were recorded on JPL standard
     incident reporting forms during the period of October 1, 2006, through February 28,
     2009. Our review of 14 documented construction-related incidents found that only 7
     were reported to NASA in IRIS. Of these 7 reports, 4 were reported late. While 5 of the
     7 reported incidents did include lessons learned, these lessons learned were incomplete;
     that is, they did not address the root cause of the reported incident as required by
     NPR 8621.1B. 26




     26
          “NASA Procedural Requirements for Mishap and Close Call Reporting, Investigating, and
          Recordkeeping w/Change 5 (03/15/2010),” which states that the objective is “to improve safety by
          identifying what happened, where it happened, when it happened, why it happened, and what should be
          done to prevent recurrence and reduce the number and severity of mishaps.”



18                                                                                      REPORT NO. IG-11-004
RESULTS




                         Summary of Documented Mishap and Close Call Incidents
                                  October 1, 2006–February 28, 2009

                                                                                            Recorded Lessons
       Classification Summary                 Number               Reported in IRIS         Learned in IRIS
       Type B Mishap*                              3                         3                         3
       Close Call                                  6                         3                         2
       Type C Mishap
        Damage between $2,500                      1                         1
        and $250,000
       Type C Mishap
        Injury involving lost                      1
        workday
       Minor injury                                2
       No injury                                   1
          Total                                  14                          7                         5
       * Per NPR 8621.1B, Chapter 1, a Type B Mishap is an incident that results in property damage of at
         least $250,000 but less than $1 million, or occupational injury or illness resulting in permanent partial
         disability or hospitalization.



  In our opinion, there would have been meaningful lessons learned from the other two
  incidents reported in IRIS because they involved employees being exposed to potentially
  dangerous situations. The JPL Occupational Safety Office made no lessons learned
  report to NASA concerning these incidents, thereby preventing the development and
  implementation of corrective actions to reduce the probability of similar mishaps at other
  NASA facilities.

  One of the reported incidents was the collapse of a trench that had not been reinforced
  with shoring during Flight Projects Center construction (see Figure 8). The collapse
  caused approximately $329,000 in damage to fiber-optic telecommunication cables,
  reducing operational networking capabilities and jeopardizing communication with Earth
  science and space exploration missions. Although JPL facility and information
  technology personnel were notified of the mishap the day after it occurred, the JPL
  Occupational Safety Office was not notified until 3 days later. In the interim,
  subcontractor employees entered the unshored trench to begin repair work, thereby being
  placed in danger from further collapse. Had the JPL Occupational Safety Office been
  notified of the incident in a timely manner, safety personnel would have had the
  opportunity to provide guidance for safe entry into the collapsed trench.




REPORT NO. IG-11-004                                                                                                 19
                                                                                                              RESULTS



                             Figure 8. Workers in Collapsed Trench and Unprotected Job Site




                                                                         Source: Occupational Safety and Health
      Source: Vanir Construction Management, Inc. (July 18, 2008)
                                                                         Administration Web site
       2008 Duct Bank Collapse at JPL. Subcontractor                    This OSHA illustration demonstrates the
       employees were placed at risk during repair work.                danger of laborers being buried when a
       The trench cave-in was not reported to the JPL                   portion of a trench wall collapses.
       Occupational Safety Office for 3 days.



     Another example of inadequate reporting was a close call involving a response by the
     JPL Fire Department to a report of
     compressed gas cylinders unearthed during     Figure 9. JPL First Responders Testing One of the
                                                                 Unearthed Cylinders
     excavation operations at the Flight Projects
     Center construction site. A photograph
     provided by the subcontractor (see Figure 9)
     shows JPL Fire Department employees
     working around one of the unearthed
     compressed gas cylinders without protective
     clothing or equipment.

     It was later determined that two of the four
     cylinders, including the one pictured,
     contained pentaborane, a highly toxic
     chemical that may ignite spontaneously if
     exposed to air.
                                                                Source: Vanir Construction Management, Inc.
                                                                (October 25, 2007)




20                                                                                         REPORT NO. IG-11-004
RESULTS



  The JPL Occupational Safety Office did not report this close call to NASA via IRIS until
  February 2009, 16 months after the incident, and then only at the prompting of NASA
  OIG personnel. In the absence of this and similar reporting, other NASA safety officials
  were not in a position to learn from the incident or to take steps to prevent exposures to
  similar risks in the future.


Benefits from Lessons Learned Were Not Shared

  JPL’s reporting systems did not meet the intended objective of NPR 8621.1B,
  particularly, “why it happened, and what should be done to prevent recurrence.” This
  concern was also discussed in OSMA’s March 2007 Institutional/Facilities/Operational
  (IFO) audit, which reported that many of JPL’s lessons learned did not meet the
  definition provided in NPR 8621.1B, which states that lessons learned from a mishap
  encapsulate “knowledge or understanding that is gained by experience.” We found that
  the JPL Occupational Safety Office did not adequately capture the knowledge gained
  from mishap analyses, report lessons learned from the root causes of events, or share
  lessons learned with the parties involved in the construction process or with other NASA
  Centers. For example, as previously discussed, the JPL Occupational Safety Office did
  not analyze or report on the close call involving pentaborane at the Flight Projects Center
  construction site so that other NASA Centers could learn from JPL’s experience. Our
  review of the 14 mishaps and close calls reported by the Occupational Safety Office and
  subcontractors found that 7 were reported to NASA in IRIS. In order for other NASA
  Centers to benefit from the experiences and lessons learned by JPL staff, all incidents and
  lessons learned must be documented in IRIS.

  During our initial fieldwork, we found that the JPL Occupational Safety Office did not
  have a process in place to share construction-related lessons learned from other NASA
  Centers with the JPL Facilities Division and subcontractors. We identified five reports
  containing lessons learned by other Centers that would have been useful to JPL
  subcontractors. However, the JPL Occupational Safety Office failed to share this
  information with the JPL Facilities Division or subcontractors.

  As a result of our review, the JPL Occupational Safety Office implemented a process to
  share with subcontractors lessons learned that are reported by other Centers. However,
  the JPL Occupational Safety Office still has no process in place to share lessons learned
  as a result of employee-reported incidents that occur at JPL.




REPORT NO. IG-11-004                                                                            21
                                                                                          RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 5. We recommended that the JPL Occupational Safety Program Office
Manager reassess the internal mishap, close call, and hazard reporting system to improve
timeliness and completeness and ensure compliance with NPR 8715.1.

     Management’s Response. JPL management responded with comments provided by the
     Manager of the Finance and Contract Management Division. JPL management
     nonconcurred with our finding and recommendation, stating that pursuant to the JPL
     prime contract and the State of California privacy laws the JPL Occupational Safety
     Office is not permitted to share personal identifiers and medical information with NASA.
     In JPL’s opinion, it is obligated to maintain multiple reporting processes in order to meet
     NASA and California OSHA reporting requirements and the terms of the prime contract.
     Despite its disagreement, JPL stated that the JPL Occupational Safety Office is working
     with the NASA Safety Center to input mishaps, including subcontractor mishaps, directly
     into IRIS and adding filters that are specifically designed to protect personal information
     and medical data. Once the privacy concerns are addressed in IRIS, the JPL
     Occupational Safety Office said it will be able to disseminate and implement all of the
     prime contract mishap reporting requirements. JPL and NASA’s target completion date
     is the first quarter of 2011; however, JPL management stated that the date is conditional
     and may change due to the availability of funding.

     Evaluation of Management’s Response. We understand that as a contractor JPL’s
     mishap reporting requirements are unique, especially in the area of privacy and the
     sharing of medical records. However, we believe that multiple reporting mechanisms
     make the data consolidation process cumbersome and the identification of recurring
     problems difficult. In addition, the manual transfer of information from one reporting
     system to another may allow for discretionary reporting of incident information or result
     in potential input errors.

     Although JPL nonconcurred with our recommendation, we find that the actions
     management is taking in concert with NASA are responsive to the intent of our
     recommendation. Accordingly, the recommendation is resolved and will be closed upon
     completion and verification of the corrective actions.

Recommendation 6. We recommended that the JPL Occupational Safety Program Office
Manager establish procedures for documenting and disseminating JPL’s lessons learned and
those from other NASA Centers.

     Management’s Response. JPL management disagreed with our findings that led to this
     recommendation, stating that all Mishap-Warning-Action-Responses coming from the
     NASA Safety Center are forwarded to JPL facilities organizations for appropriate
     dissemination to subcontractors, but agreed to take corrective action to address our




22                                                                          REPORT NO. IG-11-004
RESULTS



  recommendation. 27 As corrective action, JPL stated that it will trend mishaps by type,
  level, and organization and will post the results on the JPL Occupational Safety Office
  Web site for all JPL personnel to view. Lessons learned from all lost time cases and
  cases of interest will be presented at the quarterly JPL safety committee meetings. In
  addition, the Mishap-Warning-Action-Response initiated by the NASA Safety Center
  will be forwarded to the applicable organizations for dissemination.

  Evaluation of Management’s Response. Although we continue to believe that the JPL
  Occupational Safety Office process for sharing construction-related lessons learned from
  other NASA Centers with the JPL Facilities Division and JPL subcontractors was
  deficient for the reasons stated in our report, we find JPL’s proposed actions to be
  responsive to our recommendation. Accordingly, the recommendation is resolved and
  will be closed upon completion and verification of the proposed corrective actions.

Recommendation 7. We recommended that the JPL Occupational Safety Program Office
Manager conduct employee training to provide guidance on proper identification of root
causes and reinforce the concept of sharing lessons learned.

  Management’s Response. JPL management disagreed with our findings that led to this
  recommendation, stating that since 2007 JPL has been inputting root cause, lessons
  learned, and corrective actions from the internal JPL Mishap Reporting System into IRIS
  and that the JPL Occupational Safety Office has taken the initiative to request NASA-
  provided Root Cause Analysis training to better align with NASA’s terminology and
  investigation methodology. Despite this disagreement, JPL agreed to take action to
  address our recommendation.

  Evaluation of Management’s Response. We find JPL’s proposed action to be
  responsive to our recommendation. Accordingly, the recommendation is resolved and
  will be closed upon completion and verification of the proposed corrective action.




  27
       Mishap investigation authorities issue a Mishap-Warning-Action-Response (MWAR) when their
       investigations uncover hazards they want to share with the Agency. MWARs allow investigators to share
       safety-critical information before completing the final mishap investigation report.



REPORT NO. IG-11-004                                                                                           23
                                                                                                           RESULTS




                          THE NASA MANAGEMENT OFFICE AND OSMA DID
                                NOT ENSURE THAT OCCUPATIONAL SAFETY
                                  AND HEALTH PROGRAM REQUIREMENTS
                                WERE EFFECTIVELY IMPLEMENTED AT JPL

                We found that the NASA Management Office did not have established policies or
                procedures to ensure that JPL had fully implemented contractually mandated safety
                requirements and that OSMA did not follow its own procedures in conducting safety
                audits of JPL. Specifically, the NASA Management Office and OSMA did not
                ensure that JPL complied with NASA safety policy and, therefore, were unable to
                provide reasonable assurance that an effective safety oversight process had been
                implemented at JPL. Consequently, the NASA Management Office and OSMA did
                not identify that the JPL Occupational Safety Office had ineffective management
                systems and controls in the area of construction safety and NASA management did
                not have the information required to make knowledgeable risk acceptance and
                mitigation decisions, which placed JPL personnel and facilities at unnecessary risk.


Occupational Safety and Health Programmatic Requirements

     According to NASA Policy Directive (NPD) 1000.3D, 28 OSMA is responsible for
     “policy direction, functional oversight and assessment” for all NASA safety activities; the
     Mission Support Directorate and its subordinate division, Agency Operations, provides
     “programmatic and institutional implementation oversight at the Jet Propulsion
     Laboratory.” 29 The NPD establishes a direct reporting relationship between the Mission
     Support Directorate’s Agency Operations and the NASA Management Office but does
     not specify the roles and responsibilities of the NASA Management Office.

     NPD 8700.1E, “NASA Policy for Safety and Mission Assurance,” October 28, 2008,
     states that the Center Directors are responsible for the safety and mission success of their
     activities and operations. Each Center Director designates a safety and mission assurance
     functional manager who supports the Center Director in implementing that responsibility.
     At JPL, the safety and mission assurance functional manager is a Caltech employee.

     The JPL prime contract includes NPR 8715.1, which implements NASA safety and
     health requirements at JPL. The NPR, which sets forth the requirements for NASA’s
     occupational safety and health programs, applies to (1) all NASA organizations,
     elements, entities, or individuals; (2) all NASA equipment, property, systems, and

     28
          “The NASA Organization,” December 3, 2008, documents the NASA organization and assigns
          organizational responsibilities.
     29
          The NPD actually refers to the Office of Program and Institutional Integration, whose functions have
          since been assumed by the Mission Support Directorate.



24                                                                                         REPORT NO. IG-11-004
RESULTS



  facilities; and (3) all phases of the life cycle of systems or facilities and establishes the
  programmatic requirements for safety and health administration, inspections and
  abatement, safety and health training, recording and reporting requirements, and the
  evaluation of Center Occupational Safety and Health Programs. 30, 31, 32


JPL’s Safety Oversight Structure Is Unique among NASA Centers

  JPL is a unique Center relative to the NASA organizational structure in that it is a
  federally funded research and development center owned by NASA but operated
  pursuant to contract by Caltech. Caltech operates and maintains the facility, but NASA
  retains the authority to approve funding for operating, maintaining, improving, and
  performing new construction on the facility. The contractor performs work assigned in
  the prime contract and in task orders issued by the NASA Management Office
  Procurement Officer.

  The NASA Management Office is responsible for providing oversight of industrial
  safety, occupational health, industrial hygiene, medical services, environmental
  protection, fire safety, emergency preparedness, continuity of operations, and facility
  maintenance and construction. In addition, the NASA Management Office is responsible
  for ensuring adherence to appropriate Federal, state, and local standards and guidelines.


The NASA Management Office and OSMA Can Improve Oversight
  of JPL Institutional Safety

  We found that oversight by the NASA Management Office and OSMA was insufficient
  to ensure safety program compliance at JPL. First, the two offices did not collaborate on
  their respective oversight roles and the NASA Management Office failed to coordinate its
  oversight activities with OSMA’s strategic IFO audit for JPL. 33 Second, the NASA
  Management Office did not develop plans or resource requirements to oversee JPL’s
  safety operations. Third, OSMA’s scheduled biennial IFO audit issued on March 19,
  2007, failed to identify the JPL Occupational Safety Office’s noncompliance with

  30
       On March 30, 2004, NASA administratively renamed NASA Procedures and Guidelines 8715.1 as
       NPR 8715.1, “NASA Occupational Health and Safety Programs,” without substantially changing its
       requirements. Our report refers to the NASA Procedures and Guidelines as the NPR.
  31
       As required by Section 19 of the Occupational Safety and Health Act of 1970, as amended, and 29 C.F.R.
       Part 1960.
  32
       NPR 7123.1A, 5.1.2, “NASA Systems Engineering Processes and Requirements,” January 4, 2009,
       paragraph 5.1.2, states that life cycle “. . . proceeds through a capital assets life cycle in five well defined
       phases, a ‘Pre-Formulation and Proposal’ phase, progresses into a ‘Preliminary Design’ and then a
       ‘Build/Construct/Fabricate’ phase, and eventually ends after ‘Operations and Maintenance’ with an
       ‘Asset Disposal’ phase.”
  33
       IFO audits provide independent verification that institutions, facilities, and operations are in compliance
       with applicable NASA safety requirements.



REPORT NO. IG-11-004                                                                                                      25
                                                                                                        RESULTS



     NPR 8715.1. This inadequate oversight was caused, at least in part, by the absence of
     clearly defined roles and responsibilities between the NASA Management Office and
     OSMA. For example, personnel from both offices told us during the course of our audit
     that they had not addressed the findings in OSMA’s 2007 IFO audit because they
     believed that the other office was responsible for disposition and corrective action
     verification.


Oversight by the NASA Management Office Was Insufficient

     The NASA Management Office did not have a clear definition of its on-site safety
     oversight role, and we found no documented procedures that defined that role. We also
     did not find any evidence of construction site safety reviews by the NASA Management
     Office’s Health, Safety, and Environmental Manager.

     The NASA Management Office’s Health, Safety, and Environmental Manager provided
     the OIG with a list identifying five major areas that the manager alone was responsible to
     oversee: occupational safety, environmental safety, occupational health services, fire
     safety, and emergency preparedness. This list described 166 specific tasks, including 63
     in the occupational safety area, 46 in the occupational health services area, and 27 in the
     environmental safety area. However, despite this long list, the manager did not prepare
     any strategic or other type of plan prioritizing how he intended to meet his oversight
     responsibilities. In our judgment, one individual cannot adequately oversee five major
     functional areas of safety and provide reasonable assurance that the requirements of
     NPR 8715.1 are being met at JPL. In addition, the NASA Management Office did not
     have a documented policy for safety oversight procedures that defined the office’s
     oversight roles and responsibilities, had not assessed resource requirements to fulfill its
     oversight responsibilities, and had no strategic plan to oversee JPL safety activities.


OSMA Did Not Ensure that JPL Effectively Implemented
 Contractually Mandated Safety Requirements

     The Chief of OSMA is responsible for conducting IFO audits, which provide independent
     verification that institutions, facilities, and operations are in compliance with the
     applicable IFO Baseline Requirements Set. 34 The last IFO audit that OSMA conducted at
     JPL was completed in March 2007. The 2007 IFO audit found that the JPL Occupational
     Safety Office failed to effectively report mishaps and close calls; did not provide
     adequate oversight of subcontractor job hazard analyses and safety plans; and did not

     34
          NPR 8705.6A, “Safety and Mission Assurance Audits, Reviews, and Assessments,” April 9, 2009, states
          that the Baseline Requirements Set represents a set of requirements jointly negotiated among the
          program/project, engineering community, safety and mission assurance community, and, as appropriate,
          institutional organizations. Typically, the Baseline Requirements Set represents a subset of Agency
          safety and mission assurance processes and technical and engineering performance specification
          requirements uniquely applicable to a given NASA program, project, facility, or operation.



26                                                                                      REPORT NO. IG-11-004
RESULTS



  have adequate staffing for all of the ongoing facilities projects. However, OSMA was
  unaware that the JPL Occupational Safety Office did not:

         •   identify and monitor budget resource requirements to assess safety program
             performance;

         •   effectively conduct oversight and safety and health inspections for on-site
             construction projects; or

         •   identify or address root causes of the deficiencies identified in the March 2007
             IFO audit report.


Ineffective Use of IFO Audit Process

  OSMA did not follow its oversight procedures to ensure contractor compliance with
  NPR 8715.1 during the performance of the 2007 IFO audit. NPR 8715.1, Chapter 8,
  “Evaluation of Occupational Safety and Health Programs,” requires that NASA
  Headquarters perform IFO audits that include qualitative assessments of the extent to
  which the Center safety and health programs comply with NASA policy and procedures
  and the OSHA provisions set forth in Part 1960 of Title 29 of the Code of Federal
  Regulations. 35 In addition, the NPR requires that the IFO audits ensure these programs
  have been effectively implemented by the Center and are consistent with recognized best
  practices. Chapter 8 also requires that Centers evaluate their safety and health programs
  annually using the OSHA baseline questionnaire, which lists the key safety program
  elements found in Part 1960 that, if not adhered to, could result in Federal OSHA
  inspectors issuing NASA a notice of violation. 36 These safety program elements are also
  required by NPR 8715.1.

  We found that the IFO audit assessment of JPL’s reporting and abating of safety hazards
  and concerns did not sufficiently address NPR 8715.1, which lists 142 auditable
  requirements. However, the 2007 IFO audit covered only 9, excluding 38 of the 47
  requirements found in Chapter 2, “Safety and Health Administration.” The IFO audit
  excluded all 42 auditable requirements found in Chapter 4, “Inspection and Abatement,”
  and 53 other key topic requirements that in our judgment are essential to verifying that
  Centers are compliant with NASA safety requirements.



  35
       Basic program elements for Federal employee occupational safety and health programs are published in
       29 C.F.R. Part 1960. The purpose of NPR 8715.1 is to provide details necessary to implement the
       occupational safety and health regulations found in 29 C.F.R. Part 1960.
  36
       29 C.F.R. Part 1960 program elements citable by OSHA as found in Appendix A of OSHA Instruction
       FAP 01-00-003, “Federal Agency Safety and Health Programs,” May 17, 1996. The instruction was
       developed as a reference document for identifying the responsibilities associated with Federal Agency
       Inspections and Evaluations conducted by OSHA.



REPORT NO. IG-11-004                                                                                           27
                                                                                                           RESULTS



     OSMA personnel stated that they did not have the time or resources to audit all of the
     topics and used other methods in addition to the IFO audit to monitor safety compliance
     at JPL. We contend that an audit performed only once every 2 years, although 3 years
     elapsed between the two most recent IFO audits at JPL, should cover more than just nine
     auditable requirements. Moreover, had OSMA included in the audit such elements as
     qualifications of inspectors, conduct of inspections, employee reports of alleged unsafe or
     unhealthful conditions, notice of unsafe or unhealthful conditions, and abatement of
     unsafe or unhealthful conditions, OSMA most likely would have identified significant
     deficiencies in the JPL Occupational Safety Office’s inspection and documentation of
     employee complaints of such incidents.

     We also found that the resolution process for OSMA’s IFO audit was ineffective because
     it did not review JPL’s corrective action plans in a timely or sufficient manner. JPL
     management issued 10 “Corrective Action Plans” to address the 2007 IFO audit findings.
     However, during the 3-year period since the report’s issuance, OSMA had not made a
     determination regarding the adequacy of these action plans. Consequently, the audit
     findings remain open. In addition, we reviewed JPL’s corrective action plans and found
     that none of them, in our judgment, contained a full assessment of the identified
     deficiencies and root cause analyses, as required by the final IFO audit report. 37


Ineffective Use of Annual Operating Agreements

     NASA did not use JPL’s Annual Operating Agreement (AOA) as a means to validate the
     adequacy of JPL’s safety resources. An AOA is a management plan that defines Center
     safety and health requirements and the resources required to meet those requirements. In
     addition, an AOA defines the metrics used to measure the efficacy of safety and mission
     assurance processes.

     All NASA Centers are required to submit an AOA on an annual basis. Although there
     was no contractual requirement that JPL submit an AOA, JPL has submitted an AOA for
     the past 4 years. However, JPL’s AOAs did not address all of the elements requested by
     OSMA. Specifically, the FY 2009 AOA did not identify resource allocations by safety
     program requirements in terms of staffing, training, sampling, program promotion,
     technical information, and subcontracts. In addition, both NPR 8715.1 and AOA
     performance specifications require the identification of resource shortfalls and
     documentation of mitigation plans to address any shortfalls. However, the topic of
     resource shortfalls was not mentioned in JPL’s FY 2009 AOA.

     In addition, during a review of the JPL AOA, OSMA did not request or review any
     supporting documentation for JPL’s annual cost estimate and self-evaluation. OSMA

     37
          Root cause analysis is a structured evaluation method that identifies the root causes of an undesired
          outcome and the actions required to prevent recurrence. Root cause analysis helps determine what
          happened, how it happened, and why it happened and the identification of appropriate corrective actions
          to prevent recurrence.



28                                                                                        REPORT NO. IG-11-004
RESULTS



   also failed to evaluate and ensure that the AOA included all of NASA’s safety
   requirements, which OSMA’s own internal work instruction requires. 38 Had OSMA
   performed its evaluation of the AOA in accordance with the work instruction, it most
   likely would have identified the same deficiencies we identified during the course of our
   audit, including that the JPL Occupational Safety Office had not identified resource
   shortfalls and was not developing resource requirements and prioritizing resources by
   work process.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Although we directed recommendations 8, 9, and 10 to the Assistant Administrator for
Agency Operations, we find the comments submitted by the NASA Management Office to be
responsive to those recommendations.

Recommendation 8. We recommended that the Assistant Administrator for Agency
Operations coordinate with the Chief of Safety and Mission Assurance to establish clear
oversight roles and responsibilities concerning JPL, including responsibility for the review
of audit findings.

   Management’s Response. The NASA Management Office concurred, stating that
   specific discussions will be held between the NASA Management Office and OSMA to
   clearly delineate the respective organizations’ responsibilities for the oversight of safety
   implementation and audit compliance at JPL. Management expects to complete the
   proposed action by January 31, 2011.

   Evaluation of Management’s Response. The NASA Management Office’s proposed
   action is responsive. The recommendation is resolved and will be closed upon
   completion and verification of the proposed corrective action.

Recommendations 9. We recommended that the Assistant Administrator for Agency
Operations establish written safety oversight procedures defining the roles and
responsibilities of the NASA Management Office.

   Management’s Response. The NASA Management Office concurred, stating that it will
   coordinate with OSMA to establish clear roles and responsibilities with respect to JPL
   safety oversight. Management expects to complete the proposed action by January 31,
   2011.

   Evaluation of Management’s Response. The NASA Management Office’s proposed
   action is responsive. The recommendation is resolved and will be closed upon
   completion and verification of the proposed corrective action.
   38
        Headquarters Office Work Instruction 8700-GB05, Rev E, “Development and Utilization of Annual
        Operating Agreements,” January 26, 2009.



REPORT NO. IG-11-004                                                                                    29
                                                                                            RESULTS



Recommendation 10. We recommended that the Assistant Administrator for Agency
Operations assess the level of resources required for the NASA Management Office to meet
its responsibilities and provide those resources.

     Management’s Response. The NASA Management Office conditionally concurred,
     stating that the implementation of this recommendation is dependent upon the results of
     the corrective actions related to recommendations 8 and 9 and upon the availability of
     additional resources from the Agency. However, the NASA Management Office expects
     to take action to implement this recommendation by March 31, 2011.

     Evaluation of Management’s Response. The NASA Management Office’s proposed
     actions are responsive. The recommendation is resolved and will be closed upon
     completion and verification of the proposed corrective actions.

Recommendation 11. We recommended that the Chief of Safety and Mission Assurance
assess the IFO audit process and include steps to ensure JPL’s compliance with NPR 8715.1
requirements.

     Management’s Response. OSMA disagreed with this recommendation, stating that
     requirements for IFO audits at JPL are contained in NPR 8705.6A, “Safety and Mission
     Assurance Audits, Reviews, and Assessments,” April 9, 2009, and noting that OSMA is
     responsible for the selection of auditable areas. OSMA further stated that performance of
     the IFO audit at JPL is not governed by NPR 8715.1 and that NPR 8715.1 should not
     have been included in the JPL prime contract. However, OSMA stated that it would
     review NPR 8715.1, NPR 8705.6, and the JPL prime contract to determine whether
     additional clarifying modifications are appropriate.

     Evaluation of Management’s Response. OSMA’s implication that NPR 8715.1 was
     included in the current JPL prime contract by mistake is not reasonable given the level of
     review the JPL contract undergoes before its execution. Moreover, in our judgment it is
     entirely appropriate to hold JPL accountable to NPR 8715.1 because JPL is a federally
     funded research and development center wholly owned by the Federal Government.
     Further, NPR 8715.1 clearly states that it is applicable to all “Component Facilities”
     where NASA employees are located. Specifically, NPR 8715.1 requirements apply to the
     following: (1) all NASA organizations, elements, entities, or individuals; (2) all NASA
     equipment, property, systems, and facilities; and (3) all phases of the life cycle of systems
     or facilities. OSMA’s implication that the most comprehensive NASA policy on safety
     requirements was included in the JPL contract by mistake and that the requirements have
     gone unenforced for the entire term of the contract does little to bolster our confidence in
     NASA’s oversight of the JPL safety program.

     OSMA also stated that the IFO audit process at JPL is governed by NPR 8705.6A and
     that the 2007 IFO audit of JPL complied with that NPR. However, we found that OSMA
     failed to comply with the requirements of that NPR in conducting and following up on
     the 2007 IFO audit at JPL. Specifically, OSMA did not conduct timely follow-up
     activities to verify implementation of effective corrective and preventive actions for


30                                                                           REPORT NO. IG-11-004
RESULTS



  Headquarters IFO safety and mission assurance audit findings. As previously explained,
  we disagree that the requirements of NPR 8715.1 do not apply to JPL and, therefore,
  stand behind our findings and recommendation with respect to the IFO audit process and
  its applicability to JPL. Accordingly, we consider OSMA’s comments to be
  nonresponsive and this recommendation to be unresolved.

Recommendation 12. We recommended that the Chief of Safety and Mission Assurance
review JPL’s compliance with NPR 8715.1 programmatic requirements.

  Management’s Response. OSMA disagreed with this recommendation. OSMA stated
  that the basis for this recommendation is NPR 8715.1 and that this document does not
  apply to contractor employees and should not be included in the JPL contract.

  Evaluation of Management’s Response. As previously discussed, we maintain that
  NPR 8715.1 does apply to JPL because it is applicable to NASA Headquarters and
  NASA Centers, including Component Facilities and international operations where
  NASA employees are located. Therefore, we consider OSMA’s comments to be
  nonresponsive and this recommendation to be unresolved.

Recommendation 13. We recommended that the Chief of Safety and Mission Assurance
coordinate with the NASA Management Office to establish a contractual requirement for
JPL to annually submit an AOA and ensure that future AOAs are reviewed in accordance
with the applicable work instruction.

  Management’s Response. OSMA disagreed with our recommendation and stated that
  the AOA is intended to be a tool to gain “insight” rather than an “oversight” mechanism.
  In addition, OSMA stated that the purpose of the AOA is to facilitate dialogue and
  negotiation between the Center Director and the Center Safety and Mission Assurance
  Director rather than between the Center and OSMA. OSMA also concluded that delivery
  of the AOA on a contractual basis may have a detrimental effect on open communication
  between JPL and NASA. OSMA’s comments did not address our conclusion that if
  JPL’s AOA had been adequately reviewed using OSMA’s own internal work instruction,
  the deficiencies we identified in the budget process would likely have been discovered.

  Evaluation of Management’s Response. As discussed in our report, the AOA defines
  Center safety and health requirements and the resources required to meet those
  requirements. The July 1, 2009, AOA call letter addressed to JPL provides:

          The purpose of the AOA process is to encourage and institutionalize the Center SMA
          [Safety and Mission Assurance] Management’s conduct of thorough planning to:
          1) obtain, understand, and define the customer requirements, 2) identify the SMA
          processes and resources required to meet those customer requirements, and 3) define
          the metrics to be used to evaluate the efficacy and efficiency of the SMA process.
          The resulting AOA represents a contract between the Center Director and the Center
          Management that establishes the baseline of SMA implementation for the institutions,
          programs, and projects at the Center. Additionally, the completed AOA provides the




REPORT NO. IG-11-004                                                                             31
                                                                                                   RESULTS



            Chief, SMA, with an oversight tool to understand customer requirements at individual
            Centers and to establish a baseline to assess the effectiveness of the Center’s
            functional SMA processes.

     In our judgment, the AOA can be a valuable tool to provide much needed structure and
     rigor to the JPL safety program.

     We do not consider OSMA’s comments to be responsive and therefore consider the
     recommendation to be unresolved.




32                                                                                   REPORT NO. IG-11-004
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from March 2009 through September 2010 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We performed work at JPL and at NASA Headquarters, Washington, D.C. We obtained,
  reviewed, and analyzed Federal, NASA, and JPL policies and procedures relating to
  safety and occupational health programs, including NASA Federal Acquisition
  Regulation Supplement 1852.223-7, 29 C.F.R. Part 1960, Title 8 Division of
  Occupational and Health California Regulations, NPR 8715.1, NPR 8715.3, NPR 8621.1,
  and JPL Rules and Internal Standard Operating Procedures. We also reviewed NASA
  contract NAS7-03001 to determine contractual requirements.

  We interviewed NASA, JPL, and subcontractor employees. We reviewed the JPL
  processes for reporting, investigating, and documenting mishaps, close calls, and hazards
  to determine whether JPL ensured that hazards were properly identified and abated and
  that lessons learned were properly communicated to prevent reoccurrence. We
  selectively reviewed subcontract procurement files and associated safety plans for
  construction projects since October 2006 to determine whether JPL had established
  oversight procedures to ensure contractor and subcontractor compliance with OSHA
  regulations and NASA policies and procedures. We also reviewed the Caltech budgetary
  process to determine whether JPL employed an adequate management system of control
  in construction safety areas to ensure resources were effectively allocated to address
  safety considerations.

  To determine whether NASA provided adequate oversight of the JPL safety program, we
  interviewed officials with the NASA Management Office and OSMA. We also followed
  up on the findings of the 2007 IFO audit conducted by OSMA in support of the NASA
  Management Office.

  Use of Computer-Processed Data. We used computer-processed data to perform this
  audit. JPL mishaps and close calls were entered into IRIS. We separately requested
  documented construction-related incident reports from the JPL Occupational Safety
  Office and compared the information in the key data fields. We believe the data to be
  reliable based on our tracking and comparison.




REPORT NO. IG-11-004                                                                          33
                                                                                    APPENDIX A



Review of Internal Controls

     We reviewed and evaluated the internal controls associated with NASA oversight of the
     JPL Occupational Safety Program Office and JPL staff oversight of subcontractors
     performing on-site construction projects. We found deficiencies in both areas, as
     discussed in this report. Our recommendations, if implemented, should correct the
     weaknesses we identified.


Prior Coverage

     During the last 5 years, the NASA Office of Inspector General issued one report relevant
     to the subject of this report: “Glenn Research Center Needs to Better Define Roles and
     Responsibilities for Emergency Response” (IG-08-027, September 3, 2008), accessible
     over the Internet at http://oig.nasa.gov/audits/reports/FY08.




34                                                                        REPORT NO. IG-11-004
APPENDIX B




                       MANAGEMENT COMMENTS




REPORT NO. IG-11-004                         35
                       APPENDIX B




Omitted due
to size (a
copy can be
provided on
request).




       36     REPORT NO. IG-11-004
APPENDIX B




REPORT NO. IG-11-004   37
              APPENDIX B




38   REPORT NO. IG-11-004
APPENDIX B




REPORT NO. IG-11-004   39
              APPENDIX B




40   REPORT NO. IG-11-004
APPENDIX B




                       Edited to
                       differentiate
                       between
                       policy and
                       the actual
                       number of
                       years
                       between
                       audits on
                       page 28.




REPORT NO. IG-11-004    41
                         APPENDIX B




Changed
“required” to
“requested”
on page 28.




        42      REPORT NO. IG-11-004
APPENDIX B




REPORT NO. IG-11-004   43
                                                                               APPENDIX C




                                                       REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief, Safety and Mission Assurance
     Assistant Administrator, Agency Operations
     Director, Jet Propulsion Laboratory
     Director, NASA Management Office

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, NASA Financial Management, Office of Financial Management and
           Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Management, Organization, and Procurement
     House Committee on Science and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




44                                                                  REPORT NO. IG-11-004
Major Contributors to the Report:
   Raymond Tolomeo, Science and Aeronautics Research Director
   Ronald Yarbrough, Project Manager
   Stephen Siu, Lead Auditor
   Jiang Yun Lu, Auditor
   David Milligan, Safety and Occupational Health Specialist




REPORT NO. IG-11-004                                            45
                                                                                  DECEMBER 13, 2010
                                                                        REPORT No. IG-11-004




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY11/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
